App. 1
THE SUPREME COURT OF WASHINGTON
SUSAN CHEN and
NAIXIANG LIAN,
Petitioners,
v.
KATE HALAMAY, MD,
et al.,
Respondents.

)
)
)
)
)
)
)
)
)

No. 98503-1
ORDER
Court of Appeals
No. 76929-4-I
(consolidated with
No. 78829-9-I)

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, González, Yu
and Whitener (Justice Madsen recused and Justice
Johnson sat for Justice Madsen), considered this matter at its November 3, 2020, Motion Calendar and
unanimously agreed that the following order be entered.
IT IS ORDERED:
That both motions for discretionary review are denied.
DATED at Olympia, Washington, this 4th day of
November, 2020.
For the Court
/s/ Stephens, C.J.
CHIEF JUSTICE

App. 2
THE SUPREME COURT OF WASHINGTON
SUSAN CHEN and
NAIXIANG LIAN,
Petitioners,
v.
KATE HALAMAY, MD,
et al.,
Respondents.

)
)
)
)
)
)
)
)
)

No. 98368-2
ORDER
Court of Appeals
No. 76929-4-I
(consolidated with
No. 78859-9-I)

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, Gonzalez, Yu,
and Whitener (Justice Madsen recused and Justice
Owens sat for Justice Madsen), considered at its November 3, 2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and
unanimously agreed that the following order be entered.
IT IS ORDERED:
That the petition for review and the “Motion for
Permission for Licensed Lawyer, Mr. James Daugherty to File Briefs on Behalf of Minor, J.L.” are both
denied. The Clerk’s motion to strike the reply to the
answer to the petition for review is granted.

App. 3
DATED at Olympia, Washington, this 4th day of
November, 2020.
For the Court
/s/ Stephens, C.J.
CHIEF JUSTICE

App. 4
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION ONE
SUSAN CHEN as parent
and natural guardians of
J.L., a minor, and L.L., a
minor, and NAIXIANG
LIAN, as parent and
natural guardians of J.L.,
a minor, and L.L., a minor,

) No. 76929-4-I
) (Consolidated with
) No. 78829-9-I)
)
) ORDER DENYING
MOTION TO PERMIT
)
THE APPEARANCE OF
) JAMES DAUGHERTY,
Appellants,
) ATTORNEY
)
v.
) (Filed Apr. 14, 2020)
KATE HALAMAY, M.D., and
)
ALLEGRO PEDIATRICS
)
(previously known as
)
Pediatric Associates),
)
Respondents.
)
James Daugherty, the moving party, having ﬁled a
motion to permit the appearance of James Daugherty
as attorney for J.L., and a panel of the court having
determined that this motion be denied; now, therefore,
it is hereby
ORDERED that the motion to permit the appearance of James Daugherty be, and the same is, hereby
denied.
FOR THE COURT
/s/ Leach, J.

App. 5
THE SUPREME COURT OF WASHINGTON
SUSAN CHEN, et al,
Appellants,
v.
KATE HALAMAY, MD,
et al.,
Respondents.

)
)
)
)
)
)
)
)

No. 95288-4
ORDER
Court of Appeals
No. 76929-4-I
King County
Superior Court
No. 16-2-26019-5-SEA

Department I of the Court, composed of Chief Justice Fairhurst and Justices Johnson, Owens, Wiggins,
and Gordon McCloud, considered this matter at its
February 6, 2018, Motion Calendar and unanimously
agreed that the following order be entered.
IT IS ORDERED:
That the Appellants’ motion for expenditure of
public funds is denied.
DATED at Olympia, Washington, this 7th day of
February, 2018.
For the Court
/s/ Fairhurst, C.J.
CHIEF JUSTICE

App. 6
THE HONORABLE KEN SCHUBERT
IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
SUSAN CHEN and
NAIXIANG LIAN as
parents and natural
guardians of JASON LIAN,
a minor, and LEO LIAN,
a minor,
Plaintiffs,
v.
KATE HALAMAY, M.D., an
individual, and ALLEGRO
PEDIATRICS f/k/a
PEDIATRIC ASSOCIATES,

NO. 16-2-26019-5 SEA
ORDER DENYING
REQUEST FOR
ACCOMMODATION
ON APPEAL AND
APPOINTING GUARDIAN
AD LITEM FOR
MINOR CHILDREN
(Filed Feb. 27, 2018)

Defendants.
On February 8, 2018, plaintiff Susan Chen, on behalf of her sons, J.L. and L.L., submitted the attached
request for accommodation under the Americans with
Disabilities Act and Washington Law Against Discrimination based on his alleged mental disability. Ms.
Chen made that request for the ﬁrst time after she
ﬁled a detailed complaint on behalf of her two minor
children, unsuccessfully opposed a summary judgment
motion dismissing that complaint with prejudice, and
ﬁled an appeal of that dismissal. Ms. Chen sought the
appointment of an attorney to represent J.L. and L.L.
in that appeal. By order dated February 7, 2018, signed

App. 7
by Chief Justice Fairhurst, Department I of the Washington Supreme Court denied her motion for expenditure of public funds. This Court believes that ruling is
binding on her request for the appointment of an attorney for her appeal and thus, requires the denial of that
request.
This Court notes, however, that neither J.L. nor
L.L. have apparently had the beneﬁt of a guardian ad
litem to represent their interests at the trial court level
RCW 4.08.050 provides:
Except as provided under RCW 26.50.020
and 28A225.035, when an infant is a party he
or she shall appear by guardian, or if he or she
has no guardian, or in the opinion of the court
the guardian is an improper person, the court
shall appoint one to act Said guardian shall
be appointed as follows:
(1) When the infant is plaintiff upon the
application of the infant, if he or she be of the
age of fourteen years, or if under that age,
upon the application of a relative or friend of
the infant.
(2) When the infant is defendant, upon
the application of the infant, if he or she be of
the age of fourteen years, and applies within
thirty days after the service of the summons;
if he or she be under the age of fourteen, or
neglects to apply, then upon the application of
any other party to the action, or of a relative
or friend of the infant.

App. 8
As defendants pointed out in their opposition to plaintiffs’ motion for reconsideration, no one has ever ﬁled
an application for the appointment of a guardian to
represent either minor’s interests at any stage in these
proceedings. Given that Washington is a notice pleading state and given CR 1’s mandate that this Court
construe and administer the rules in a way to secure
the just, speedy, and inexpensive determination of this
action, this Court interprets plaintiff ’s request for an
appointment of someone to assist her minor children
as a request for the appointment of a guardian ad litem
at the trial court level.
Pursuant to RCW 4.08.050, this Court hereby
appoints Kevin Khong, who is on the guardian ad litem county pay list, at Helsell Fetterman LLP, 1001
4th Ave Ste 4200, Seattle, WA 98154-1154, email:
kkhong@helsell.com, phone: 206.689.2147. He shall be
paid at a rate not to exceed $45 an hour up to a maximum of $300 without further prior court approval. The
GAL shall meet (by phone or in-person) with plaintiffs
as soon as practicable following appointment and explain, in language which such person can reasonably
be expected to understand, the current status of the
proceedings and what options the minors have at this
point. The GAL shall provide a report summarizing
that meeting and submit it to the Court within 45 days
from entry of this order.

App. 9
Dated this 27th day of February, 2018.
HONORABLE KEN SCHUBERT
CHIEF CIVIL JUDGE

King County Superior Court
Judicial Electronic Signature Page
Case Number:
Case Title:

16-2-26019-5
CHEN ET AL VS HALAMAY ET ANO

Document Title: ORDER ON MOTION FOR ACCOMMODATION
Signed by:
Date:

Ken Schubert
2/27/2018 9:28:53 AM

/s/ Ken Schubert
Judge/Commissioner:
Ken Schubert
This document is signed in accordance with the provisions in GR 30.
Certiﬁcate Hash:
B3CCC17BEB9A4E74398B810537AC5D3A185E711B8
Certiﬁcate effective date: 7/29/2013 12:37:57 PM
Certiﬁcate expiry date: 7/29/2018 12:37:57 PM
Certiﬁcate Issued by:
C=US, E=kcsceﬁling@
kingcounty.gov, OU=KCDJA,
O=KCDJA, CN=”“Ken
Schubert:rumaiXr44hGoUk
M4YYhwmw==”

App. 10
THE HONORABLE KEN SCHUBERT
IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
SUSAN CHEN and
NAIXIANG LIAN as
parents and natural
guardians of JASON LIAN,
a minor, and LEO LIAN,
a minor,
Plaintiffs,
v.

NO. 16-2-26019-5 SEA
ORDER GRANTING
MOTION FOR
RECONSIDERATION,
APPOINTING COUNSEL
PURSUANT TO GR 33,
AND SETTING
BRIEFING SCHEDULE

KATE HALAMAY, M.D., an
individual, and ALLEGRO
PEDIATRICS f/k/a
PEDIATRIC ASSOCIATES,
Defendants.
Plaintiff Susan Chen, on behalf of her son, J.L.,
sought reconsideration of this Court’s February 27,
2018 Order denying her request for an accommodation
under the Americans with Disabilities Act and Washington Law Against Discrimination based on her son’s
alleged mental disability. While that order did not appoint an attorney, it did appoint a guardian ad litem
pursuant to RCW 4.08.050. This Court has now considered her motion for reconsideration, defendants’ response, the reply, along with the GAL’S two reports. On
reconsideration, this Court hereby GRANTS Ms.
Chen’s request as follows. Pursuant to GR 33, this

App. 11
Court appoints Nathan Thomas Anderson and Shawn
Larson-Bright of Dorsey Whitney, 701 5th Ave #6100,
Seattle, WA 98104 to represent J.L. for the limited purpose of (1) drafting J.L.’s reply to defendants’ response,
if any, to the motion to show cause/vacate pursuant to
CR 60; and (2) appearing at the show cause hearing to
argue on behalf of J.L.
The parties have conferred regarding their availability for the show cause hearing and have agreed upon
July 19, 2018. Accordingly, this Court moves the hearing to July 19, 2018 at 1:30 pm in W-325, courtroom 3
of the King County Courthouse. Defendants shall serve
and ﬁle their response no later than June 29, 2018.
Plaintiffs shall serve and ﬁle their reply, including the
reply of J.L. drafted by appointed counsel, no later than
July 16, 2018.
Dated this 4th day of June, 2018.
[E-signature on the following page]
HONORABLE KEN SCHUBERT
CHIEF CIVIL JUDGE

App. 12
King County Superior Court
Judicial Electronic Signature Page
Case Number:
Case Title:

16 2 26019 5
CHEN ET AL VS HALAMAY ET ANO

Document Title: ORDER GRANTING RECONSIDERATION
Signed by:
Date:

Ken Schubert
6/1/2018 9:05:26 AM

/s/ Ken Schubert
Judge/Commissioner:
Ken Schubert
This document is signed in accordance with the provisions in GR 30.
Certiﬁcate Hash:
B3CCC17BEB9A4E74398B810537AC5D3A185E71B8
Certiﬁcate effective date: 7/29/2013 12:37:57 PM
Certiﬁcate expiry date: 7/29/2018 12:37:57 PM
Certiﬁcate Issued by:
C=US, E=kcsceﬁling@
kingcounty.gov, OU=KCDJA,
O=KCDJA, CN=“Ken
Schubert:rumaiXr44hGoUk
M4YYhwmw==”

App. 13
IN THE SUPERIOR COURT FOR WASHINGTON
COUNTY OF KING
SUSAN CHEN and
NAIXIANG LIAN as
parents and natural
guardians of JASON LIAN,
a minor, and LEO LIAN,
a minor,

NO. 16-2-26019-5 SEA
REPORT OF GUARDIAN
AD LITEM/PETITION
FOR DISCHARGE OF
GUARDIAN AD LITEM

Plaintiffs,
v.
KATE HALAMAY, M.D., an
individual, and ALLEGRO
PEDIATRICS f/k/a
PEDIATRIC ASSOCIATES,
Defendants.
COMES NOW, Kevin Khong, Guardian ad Litem,
to respectfully ﬁle this Report of Guardian ad Litem
and Petition for Discharge.
A. Appointment
Date of Appointment: February 27, 2018
Date of Service of Copy of Appointment Order: February 27, 2018
After obtaining records from Ms. Chen and reviewing the dispositive pleadings from the docket, I have
reviewed the following:

App. 14
1.

Complaint;

2.

Defendants’ Answer to Plaintiffs’ Complaint;

3.

Defendants’ Motion for Summary Judgment of Dismissal, dated December 8,
2016;

4.

Response to Summary Judgment and Requesting a Continuance of Hearing for
Summary Judgment, dated February 13,
2017;

5.

Defendants’ Reply in Support of Motion
for Summary Judgment of Dismissal,
dated February 21, 2017;

6.

Plaintiffs Response to Defendants’ Reply
for Motion of Summary Judgment, dated
February 24, 2017;

7.

Defendants’ Motion for Summary Judgment of Dismissal, dated April 13, 2017;

8.

Defendants’ Reply in Support of Motion
for Summary Judgment of Dismissal,
dated May 8, 2017;

9.

Order Granting Summary Judgment,
dated May 12, 2017;

10. Motion for Reconsideration of Order
Granting Defendants’ Motion for Summary Judgment of Dismissal, dated May
19, 2017;
11. Defendants’ Response to Motion for Reconsideration of Order Granting Defendants’

App. 15
Motion for Summary Judgment Dismissal, dated May 26, 2017;
12. Order on Civil Motion Denying Plaintiffs’
Motion for Reconsideration, dated May
26, 2017;
13. Correspondence from Court of Appeals,
Cause Number 76929-4-1, dated September 22, 2017;
14. Order of Indigency, dated December 11,
2017;
15. Petitioner’s Submission in Support of
Motion for Expenditure of Public Funds
under RAP 15.2, Supreme Court of Washington Cause Number 95288-4, dated
January 8, 2018;
16. Order Denying Expenditure of Public
Funds, dated February 7, 2018;
17. Order Denying Request for Accommodation on Appeal and Appointing Guardian
ad Litem for Minor Children, dated February 27, 2018;
18. Plaintiffs’ Motion for Clariﬁcation, or in
the Alternative, Reconsideration of Order Denying Request for Accommodation,
dated February 28, 2018.

App. 16
B. Report of Meeting on March 30, 2018.
Scope of Appointment
The Order Denying Request for Accommodation
on Appeal and Appointing Guardian Ad Litem for Minor Children that originated my involvement in this
case set out narrow instructions for what my role in
this proceeding would be: “[M]eet (by phone or inperson) with plaintiffs as soon as practicable following
appointment and explain, in language which such person can reasonably be expected to understand, the current status of the proceedings and what options the
minors have at this point.” Dkt. #56. The scope of my
involvement is further limited to the proceedings under this cause number and did not extend to the related actions ﬁled by Ms. Chen in King County Cause
Number 16-2-26013-6 SEA or the Federal lawsuit under Cause Number 16-cv-01877-JLR. It appears that
Dorsey & Whitney LLP have agreed to assist Ms. Chen
and the minor children in their federal lawsuit.
Meeting with Susan Chen, II., and L.L.
I met Susan Chen, J.L., and L.L. on March 30,
2018, from 4:00 p.m. to 6:00 p.m. at the Redmond Public Library (15990 NE 85th St. Redmond, WA 98052) at
Ms. Chen’s request, in order to accommodate L.L.’s
scheduled after-school activity that was to follow our
meeting. We met in the Children’s section of the library
at a rectangular table in the corner, in a place intended
to make both J.L. and L.L. as comfortable as possible.
I had attempted to obtain a meeting room upon our

App. 17
arrival, but all of them were occupied. Other than
other children passing through every once in a while
looking for hooks, we were able to discuss matters in
seclusion.
Summary of Meeting
I met with Ms. Chen, J.L. and L.L. on March 30,
2018, after making arrangements with Ms. Chen to
come up from Oregon so that I could meet with her and
both children in person. We met at the Redmond Public
Library, where I tried to communicate with both J.L.
and L.L., prior to discussing with all three of them
what was going on in the case. I was unable to communicate effectively with either minor because of a
combination of (1) language issues and (2) an inability
to convince the children that I was not from Child Protective Services (CPS) attempting to interview them in
an effort to remove them from their mother’s custody
again.
As a result, while I attempted to have a meaningful conversation with Ms. Chen, J.L. and L.L., the conversation concerning the case and the “options” that
the minors have at this point in the proceedings involved mainly a discussion with only Ms. Chen and me,
even though both children were present. It is clear
from my interview that any substantive progress in
the case will require the assistance of legal counsel
beyond the capabilities of a Guardian ad Litem appointment and likely a Mandarin language interpreter
for the children. Ms. Chen’s pro se attempts to help

App. 18
shepherd the case along (while admirable in what she
has been able to do without legal counsel) are simply
not sufﬁcient to address the matter in a proﬁcient
manner.
It is unclear from the order that appointed me
whether the Court is requesting a recommendation
from me beyond providing a report summarizing the
meeting. However, if the Court has the authority, it is
clear that it would be in the best interest of both J.L.
and L.L. if the Court were to appoint independent
counsel to investigate and pursue a CR 60 motion and
assist in preparation of the record for the pending appeal.
Communication Issues with J.L. and L.L.
My appointment was presumably premised on trying to better communication and reducing whatever
language barrier the plaintiffs may be facing due to
having English as a secondary language. While I was
able to communicate with Susan Chen without having
to resort to speaking in Cantonese, it is also evident
that that neither child is able to effectively communicate in Cantonese. I was unable to communicate with
either J.L. or L.L. in English or Cantonese, and the
only time either would respond to any prompts was
when Ms. Chen would talk with them in Mandarin (a
language which I do not speak). Accordingly, any effective communication with the two children will likely
require a court-certiﬁed Mandarin interpreter. In addition to the language issues, it is also clear that both

App. 19
J.L. and L.L. are wary of unfamiliar persons due to the
underlying trauma of their removal from their parental home.
•

J.L.

Ms. Chen had given me advanced warning in our
previous phone calls about J.L.’s condition resulting in
him being completely non-verbal. I conﬁrmed this observation through my own attempts to try and talk
with J.L. throughout the two hours that I met with the
family. J.L. often responds with non-verbal grunts or
hand gestures (only to his mom), and often had a “thousand-yard stare” as if he were looking right through
me whenever I tried to talk with him. Ms. Chen would
have to give prompts in Mandarin to keep J.L. from
wandering off on multiple occasions and most times it
would take multiple attempts by Ms. Chen to get J.L.
to regain focus. I do not believe I got through to J.L. at
all. I do not have a baseline for how communicative J.L.
was prior to his removal from his parental home. However, if J.L. did once have the ability to verbalize, there
is no evidence of that, ability to do so now. As such, the
discussion of the case was discussed mainly with Ms.
Chen directly.
• L.L.
I also was confronted with issues trying to speak
with L.L.. When I ﬁrst introduced myself to him only
by my ﬁrst name, L.L. immediately asked, “Are you
from CPS?” In spite of multiple attempts to reassure

App. 20
him that I was not from CPS or speaking with him in
an effort to remove him from his mom’s custody, L.L.
was still uncomfortable and would respond to all questions with silence. At one point, L.L. leaned over to his
mom and whispered in her ear. I found out from Ms.
Chen later that he was still trying to conﬁrm whether
I was from CPS. This obvious fear was exacerbated by
what was likely a language barrier. While L.L. could
respond immediately to Ms. Chen’s Mandarin prompts,
it took multiple repetitions of statements in English to
get a response from either Ms. Chen or me. It was clear
that it would be unfruitful to continue to try and force
L.L.’s participation, so L.L. was allowed to go look at
books in the corner while I continued the discussion
with Ms. Chen.
After L.L. left the table, Ms. Chen explained that
L.L. has been going through his own recovery after the
removal by CPS. She stated that L.L. repeatedly
brought up the subject at school to the point that other
children would tease him and call him “CPS boy.” As a
result, L.L. has been getting therapeutic treatment to
help him through the trauma. It was obvious that L.L.
had no interest in speaking with me, and he left for his
after-school activity about halfway through the meeting.
Discussion of Current Status of the
Proceedings and Options the Minors Have
As I explained in my interim report to the Court, I
had previously outlined the scope of my appointment

App. 21
for Ms. Chen during two prior phone calls I had with
her on March 2, 2018, and March 14, 2018. She was
fully aware of the things I could and could not do, that
she and I do not share an attorney-client privilege, that
I do not have authority to direct litigation, and that my
role was to ultimately write a report for the Court summarizing this meeting.
Ms. Chen was therefore understandably guarded
in the speciﬁcs that she did discuss, for fear of waiving
any attorney-client conﬁdences she may have with her
attorneys in the federal case, as well as any privileged
information she did not wish to disclose so that the defendants in this case may be privy to the information.
This particular situation emphasizes the conﬂict for
the Guardian ad Litem in these proceedings, and the
need for independent counsel to be appointed to substantively address the issues facing the plaintiffs in
the proceedings for this matter. I could not promise Ms.
Chen that I would not write a report for the Court because that was the very reason why I was appointed. I
also did not want to force her to divulge privileged information that may negatively impact the strategy of
her case, since it would not be in the best interest of
either J.L. or L.L. to do so. We ultimately agreed to
keep our discussion to addressing the proceedings only
in this cause number and limited discussion of legal
options to directing Ms. Chen to the appropriate resources.

App. 22
•

16-2-26019-5 SEA – Trial Court Level Proceedings

The substantive proceedings in this matter terminated at the trial court level after the summary judgment ﬁled by the defendants on December 8, 2016, was
granted by Judge Ramsdell on May 12, 2017. Dkt. #11,
30, 40. It appears from review of the summary judgment pleadings that Ms. Chen never responded to the
substance of the summary judgment pleadings, with
her “Response” and “Reply” being essentially requests
for continuances. Dkt. #27, 34. judge Ramsdell granted
one continuance, but granted the summary judgment
motion after Ms. Chen failed to appear for the hearing
on the motion on May 12, 2017. Dkt. #30. Shortly afterward, on May 19, 2017, Ms. Chen ﬁled a motion for reconsideration asking that the dismissal be without
prejudice in regards to L.L. and J.L.’s potential claims,
making the argument that the statute of limitations
was tolled until they reach majority. Judge Ramdell denied the motion for reconsideration on May 26, 2018.
Dkt. #40.
Ms. Chen is adamant that a CR 60 motion should
be made to obtain relief from judgment on the theory
that L.L. and J.L. should be able to preserve their claim
until they reach the age of majority. I tried to explain
to her at length that the defendants had moved to dismiss the case on the substantive issues and not on the
statute of limitations issue, but she did not comprehend that there was difference between the two things.

App. 23
Regardless, I told her that if she truly believed
that a CR 60 motion was appropriate to be ﬁled, she
needs to begin to prepare such a motion immediately
because the deadline for ﬁling such a motion is coming
up and must be ﬁled within a year of the ﬁnal dismissal order that was entered in May 2017. This only gave
her a little over a month to prepare such a pleading.
Ms. Chen insisted that such a motion wait until counsel for J.L. and L.L. he appointed and kept referencing
wailing on a ruling by Judge Schubert on the appointment of counsel.
Accordingly, the efﬁcacy of a CR 60 motion aside,
it is clear that the ability to make such a motion at all
would be forfeit if J.L. and L.L. are not appointed legal
counsel because Ms. Chen does not appear to have the
legal knowledge and/or language capability to draft
such a motion and is adamantly refraining from doing
so without appointment of independent legal counsel.
Therefore, if the Court does have the authority to appoint legal counsel for J.L. and L.L., it would be in the
best interest of the children to do so.
• 76929-4-I – Appellate Level Proceedings
On May 31, 2017, Ms. Chen timely ﬁled her appeal
of the summary judgment dismissal to the Court of Appeals. She also began to seek a request for accommodations on behalf of J.L. under the Americans with
Disabilities Act and Washington Law Against Discrimination based upon his mental disability. On February
7, 2018, Chief Justice Fairhurst denied the motion for

App. 24
expenditure of public funds for appointment of an attorney for the appeal. The appeal proceeded onward at
that time, with the Court of Appeals requesting that
Ms. Chen designate Clerk’s Papers and a Statement of
Arrangements to be ﬁled by March 23, 2018.
Based upon the posture of the case, I also informed
Ms. Chen during my previous two phone calls (on
March 2 & 14, 2018) that she needs to begin to address
the substantive claims on appeal even as she continues
to seek representational accommodations for the children, for fear of having deadlines missed or forfeiting
any substantive claims on appeal. I followed up on
March 15, 2018, with an email that provided a link to
the Court of Appeals website that offers sample forms
and instructions which could aid her in preparing and
ﬁling the Designation of Clerk’s Papers and Statement
of Arrangements. In lieu of ﬁling these documents, Ms.
Chen moved the Court of Appeals to “modify” the “ruling” of the Court Administrator/Clerk setting the
March 23, 2018, deadline by motion on March 20, 2018.
When we began discussing the posture of the appeal, Ms. Chen began to cry and explained to me how
overwhelmed she is with everything that is happening
in the case. She does not believe that she has ability or
legal knowledge to make the arrangements necessary
to perfect the appeal. Given this Court’s interpretation
of the February 7, 2018, Order by justice Fairhurst in
its Order Denying Request for Accommodation on Appeal and Appointing Guardian ad Litem for Minor
Children, I understand that the Court is bound to deny
the appointment of an attorney on appeal. However, if

App. 25
the Court does have the authority to appoint legal
counsel for J.L. and L.L. for the investigation and pursuit of a CR 60 motion at the trial court level, then perhaps that attorney could also assist in the perfection of
at least the record for the appeal. It would certainly be
in the best interest of the children to do so.
Petition for Discharge
As expressed in my interim report, while Ms.
Chen’s efforts with the Court seem to have resulted in
the appointment of a Guardian ad Litem, I am concerned about what can he reasonably accomplished by
my appointment without J.L. and L.L. having the actual appointment of an attorney. After speaking with
Ms. Chen, it appears that J.L. and L.L.’s interests require an attorney appearing on their behalf in a representational capacity that can assist them in their
substantive claims.
My interactions with Ms. Chen, J.L., and L.L. thus
far have exposed the potential danger I may have as a
reporter to the Court in a Guardian ad Litem role. I
was appointed to summarize a meeting in which the
options of the minors were discussed in a report that is
ﬁled in the public record. I purposefully refrained from
obtaining information that would nullify privileged information that may be important to the federal case
being handled by Dorsey Whitney or in either of the
state-level cases, while trying my best to still assist Ms.
Chen in ﬁnding the resources to advance the claims in
a way that would be in the best interests of both J.L.

App. 26
and L.L. However, it is evident at this point that Ms.
Chen, J.L., and L.L. will likely need the substantive assistance of an attorney in order to move forward in
these proceedings and I have reached the limit of what
help I could meaningfully provide in this matter.
Again, I appreciate the Court’s consideration for
appointment as Guardian ad Litem in this proceeding.
I also recognize the limitations of what I can appreciably accomplish even if the Court were to instruct me to
act to address the substantive claims on the minor children’s behalf. I do not have a background in medical
malpractice or personal injury and it would be a detriment to both J.L. and L.L. if I was asked to participate
in this way. It also appears that the one advantage
I was thought to have in communicating in the
same language is nonexistent given the minors’ preference for Mandarin. Having completed the tasks requested of me by the Court, I recommend that I be
discharged from this case. If the Court intends for any
assistance of counsel in a substantive capacity and has
the authority to do so, an attorney with more experience in the requisite practice area(s) should be appointed.
GAL Compensation
This is brought as a county pay case, but I am not
seeking compensation for my appointment. I intend to
report my time as pro-bono.

App. 27
C. Conclusion
I met with Susan Chen, J.L., and L.L., to discuss
the current posture of this case and the possible options the minors may have to address the issues at the
trial and appellate level. It is clear from my interview
that any substantive progress in the case will require
the assistance of legal counsel beyond the capabilities
of a Guardian ad Litem appointment and likely a Mandarin language interpreter for the children. Ms. Chen’s
pro se attempts to help shepherd the case along (while
admirable in what she has been able to do without legal counsel) are simply not sufﬁcient to address the
matter in a proﬁcient manner.
Having completed the tasks requested of me by
the Court, I recommend that I be discharged from this
case. If the Court intends for any assistance of counsel
in a substantive capacity and has the authority to do
so, an attorney with more experience in the requisite
practice area(s) should be appointed.
(Signature Page Follows)
DATED this 2nd day of April 2018.
HELSELL FETTERMAN LLP
By: /s/ Kevin Khong
Kevin Khong, WSBA #46474
Guardian ad Litem for J.L.,
a minor, and L.L., a minor

